HHS/OIG-Audit--"Review of the State of Mississippi Self-Insurance Funds, (A-04-91-00024)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Mississippi Self-Insurance Funds," (A-04-91-00024)
March 5, 1992
Complete
Text of Report is available in PDF format (1.88 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State of Mississippi Unemployment Insurance Fund is a self-insurance fund established to provide coverage for unemployment
claims arising from former employees of State agencies. This final report prepared by a certified public accounting firm
under contract with the Office of Inspector General identified excess reserves totaling $8,134,380 as of June 30, 1990.
The excess reserve balance occurred as a result of charging State agencies premiums that were in excess of claims and operating
expenses. We recommended that the State make a financial adjustment of $1,626,876 for the Federal share of the Unemployment
Insurance Fund balance accumulated in excess of the amount allowed by Federal cost principles. We also recommended that
the State ensure that charges to Federal programs are in accordance with OMB circular A-87 and the Statewide Cost Allocation
Plan. The State plans to monitor the billing rates more closely and make appropriate adjustments to prevent the accumulation
of excess funds in the future.